No.

 

IN THE

Supreme Court of the United States

50 MURRAY STREET ACQUISITION LLC,

Petitioner,
v.
JOHN KUZMICH, ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the New York Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,985 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 24, 2019.

LL

Colin Casey Hogan.
Wilson-Epes Printing Co., Inc.

   
